May 9, 2008

STEPHEN M. KEARNEY
VICE PRESIDENT, PRICING AND CLASSIFICATION

WILLIAM (ASHLEY) LYONS
MANAGER, CORPORATE FINANCIAL PLANNING

SUBJECT: Audit Report – Bound Printed Matter Workshare Discounts
         (Report Number CRR-AR-08-005)

This report presents the results of our audit of workshare discounts (Project Number
07YG014MS000). Our objective was to review the development and implementation of
workshare discounts. Our review focused on Bound Printed Matter (BPM). This audit
was self-initiated and addresses both strategic and financial risks. Click here to go to
Appendix A for additional information about this audit.

Conclusion

The U.S. Postal Service properly established BPM workshare discounts in accordance
with postal legislation and internal policies and procedures. Management also properly
implemented the BPM workshare discounts established in Omnibus Rate Case
R2006-1. At six large BPM acceptance facilities, controls were in place to ensure
mailers prepared BPM to workshare standards. However, some of the supporting
documentation that management used to develop the BPM discounts was old, which
could affect the reliability of the BPM workshare discount rates. Updating this data
would help establish more accurate management information the Postal Service can
use to develop and implement rate changes and prepare annual reports for the Postal
Regulatory Commission1 on the impact of workshare discounts. We will report this non-
monetary impact, reliability of information,2 in our next Semiannual Report to Congress.

Development and Implementation of Bound Printed Matter Workshare Discounts

Controls over development and implementation of BPM workshare discounts were
adequate. Omnibus Rate Case R2006-1 established the current BPM workshare
discount rates and the Postal Service implemented them in May 2007. Click here to go
to Appendix B for our detailed analysis on this topic.



1
    Formerly known as the Postal Rate Commission.
2
    Data used to support management decisions that is not fully supported or completely accurate.
Bound Printed Matter Workshare Discounts                              CRR-AR-08-005




Old Data Used to Develop Bound Printed Matter Workshare Discounts

Some of the supporting data the Postal Service used to develop BPM workshare
discounts was old. The agency did not always update the supporting data used in prior
omnibus rate cases to reflect the current operational environment. This occurred
because the time and resources to update certain studies were inadequate, and
because the 2005 and 2006 rate cases were filed in rapid succession. Old supporting
data may not be reliable and may lead to inaccurate BPM workshare discount rates.
Click here to go to Appendix B for our detailed analysis of this issue.

We recommend the Manager, Corporate Financial Planning, direct the Manager,
Special Studies, to coordinate with Postal Service Operations to:

   1. Determine whether the old supporting data is accurate in the current operational
      environment.

   2. Develop updated cost avoidance models based on current data.

Management’s Comments

Management generally agreed with the overall findings and recommendations. In
response to recommendation 1, management for Special Studies agreed to
communicate with Postal Service Operations to incorporate technological and policy-
driven changes to field operations into the cost models. Special Studies also agreed to
conduct field observations in Quarter 4, fiscal year (FY) 2008 to determine whether
further field study and data collection are needed.

In response to recommendation 2, management stated that each year, as part of the
Annual Compliance Report, new information from Postal Service data systems is
incorporated into the cost avoidance models. Management for Special Studies agreed
to conduct research to locate alternative sources for more recent data. Management
noted the Postal Regulatory Commission plans to consider how best to categorize
costing issues to establish priorities in a manner that reflects the importance of the data,
its age, and obsolescence, along with the cost of updating to ensure the appropriate use
of resources. Management stated that by the end of 2008, they could complete a draft
of a cost study of short-term and longer-term data needs. However, management
indicated that updating the BPM inputs cited in the report may not be a top priority once
a comprehensive approach to costing needs is developed.

Management did not agree with the representation that the information did not reflect
the current operation environment. They indicated that the report did not provide
information on the types of operational changes that could have impacted the
productivities, which productivities would have been impacted, and which direction
those productivities would have been driven. They also questioned whether increases




                                             2
Bound Printed Matter Workshare Discounts                              CRR-AR-08-005



in productivities would have occurred over the years in the areas cited, as these are
manual versus automated operations. Lastly, management questioned the information
provided regarding a possible increase in Bound Printed Matter revenue of $1 million to
$3.5 million.

Management’s comments, in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report. OIG did not presume that
old data used to develop cost avoidances and workshare discounts is inaccurate, and
agrees with management that updating this information may require expensive field
studies. OIG stated that the inputs and productivities might not reflect the current
operational environment; however, determining whether or not the inputs and
productivities are still valid within the current operational environment was beyond the
scope of this audit. Regarding management’s concern over the possible increase in
revenue, the OIG used test year volume estimates, not actual volume. Calculations
were based on information that the Postal Service submitted to the Postal Regulatory
Commission in the R2006-1 rate case. As management stated, the Postal
Accountability and Enhancement Act (Postal Act of 2006) allows the Postal Service
flexibility to choose which prices it will increase or decrease within the same mail class
as long as the provisions of the statutory cap are met.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, Director, Cost,
Revenue and Rates, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments




                                             3
Bound Printed Matter Workshare Discounts       CRR-AR-08-005



cc: H. Glen Walker
    Michael K. Plunkett
    Joseph D. Moeller
    Virginia J. Mayes
    Katherine S. Banks




                                           4
Bound Printed Matter Workshare Discounts                                                    CRR-AR-08-005



                                  APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Workshare discounts are rate discounts the Postal Service provides to mailers for
presorting, pre-barcoding, handling, or transporting mail — duties the agency would
otherwise assume. The Postal Service first established workshare discounts in 1976
with a 1-cent discount for presorted First-Class Mail®. Today there are over 450
workshare discount rates that encompass all classes of mail (except Priority and
Express Mail) and apply to over 80 percent of mail the Postal Service processes. Table
1 shows the growth of workshare discounts over the past nine rate cases dating back to
1984.

                             Table 1. Workshare Volume by Rate Case
                                                    (in millions)


Mail Volume             R84-1       R87-1      R90-1      R94-1       R97-1     R2000-1      R2001-1     R2005-1        R2006-1
  Non-Workshared        54,071      61,909     61,869     59,923      56,883      57,011       50,743      45,824         40,756
  Workshared            71,404      84,822     94,686    116,959     133,327     149,743      159,993     165,146        169,166
Total Mail Volume      125,475     146,731    156,556    176,883     190,210     206,754      210,736     210,970        209,923
Percentage of
Volume
Workshared                 56.9       57.8        60.5        66.1      70.1         72.4        75.9         78.3          80.6


BPM is a subclass of the Package Services class of mail that consists of advertising,
promotional, directory, and editorial material in permanently bound printed volumes.
This includes catalogs, books, directories, and manuals that can be packaged as flats or
parcels. There are currently six BPM workshare discounts. The first discount,
established in the 1970s, provided a bulk BPM discount for mail presorted with a 3- or
5-digit ZIP Code. The Postal Service established a 5-cent carrier route discount3 for
bulk BPM in 1984, introduced a pre-barcoding4 workshare discount in 1997, and
established additional dropshipping workshare discounts in 2000.5

Since introducing BPM dropship discounts, dropship BPM volume has increased. In
Omnibus Rate Case R2000-1, the test year volume estimates for dropshipped BPM was
329.1 million pieces. By the R2006-1 rate case, the test year volume estimates for
dropshipped BPM rose to 520 million pieces. At the same time, volume estimates for
non-dropshipped BPM pieces decreased. Table 2 shows the increase in BPM dropship
volume.


3
  This discount applies when the mailer arranges mail by carrier route to qualify for a discounted postage rate and
requires no primary or secondary distribution.
4
  Pre-barcoding occurs when the mailer applies a barcode to the mailpiece that bears the correct destination ZIP
Code to qualify for a discounted postage rate.
5
  Discounts include dropshipping BPM at destination bulk mail centers (DBMC), destination sectional center facilities
(DSCF), and destination delivery units (DDU). Dropshipping is entering mail deeper into the Postal Service mail
processing system to qualify for discounted postage rates.




                                                          5
Bound Printed Matter Workshare Discounts                                               CRR-AR-08-005



                                   Table 2. BPM Dropship Volumes6
                                                    (in pieces)


            Rate Case                R2000-1          R2001-1           R2005-1         R2006-1
            Dropshipped
              DBMC                 259,980,784      179,345,886       243,688,434     242,162,883
              DSCF                  48,732,533      118,705,364       183,438,887     205,809,377
              DDU                   20,396,561       19,037,653        55,588,745      71,994,983
            Total Dropshipped      329,109,878      317,088,903       482,716,066     519,967,243
            Non-Dropshipped        201,841,122      242,842,057       111,593,579     103,677,231


Along with the increase in BPM dropship volume, there was an increase in BPM
workshare discount rates. Table 3 shows this trend.

                                  Table 3. BPM Dropship Discounts
                                                     (in cents)

                    Rate Case       R2000-1        R2001-1        R2005-1         R2006-1
                    DBMC              13            26.0           27.4             31.7
                    DSCF              15            21.5           22.6             38.3
                    DDU               21            28.6           30.1              8.4

                    In R2006-1, a different calculation method was used to determine the
                    DDU discount. In prior rate cases, the DDU discount was
                    determined by the difference of DDU cost savings – DBMC cost
                    savings; in R2006-1, the discount was determined by the difference
                    of DDU cost savings – DSCF cost savings.

The current BPM workshare discount rates were established in R2006-1, the last
omnibus rate case filed before postal reform legislation was enacted in December
2006.7 Under the Postal Reorganization Act of 1970, there are nine factors the Postal
Regulatory Commission must use when considering mail categories and rates:

      •    Establishment and maintenance of a fair and equitable schedule.

      •    The value of mail service each class of mail or type of mail service actually
           provides to both the sender and the recipient — including but not limited to — the
           collection, mode of transportation, and priority of delivery.

      •    The requirement that each class of mail or type of mail service bear the direct
           and indirect costs attributable to that class or type plus that portion of all other
           costs to the Postal Service that are reasonably assignable to such class or type.



6
    Volumes based on test year estimates in rate cases R2000-1, R2001-1, R2005-1, and R2006-1.
7
    Public Law 109-435, Postal Accountability and Enhancement Act, December 20, 2006.




                                                         6
Bound Printed Matter Workshare Discounts                                CRR-AR-08-005



   •   The effect of rate increases upon the general public, business mail users, and
       enterprises in the private sector of the economy engaged in the delivery of mail
       matter other than letters.

   •   Available alternative means of sending and receiving letters and other mail
       matter at reasonable costs.

   •   Degree of mailer’s preparation of mail for delivery into the Postal Service system
       and its effect on reducing costs to the Postal Service.

   •   Simplicity of structure for the entire schedule and simple, identifiable
       relationships between the rates or fees charged the various classes of mail for
       postal services.

   •   Educational, cultural, scientific, and informational value to the recipient of mail
       matter.

   •   Other factors the Postal Regulatory Commission deems appropriate.

The Postal Act of 2006 classifies BPM as a market-dominant (mailing services) product,
and limits the change in rates for market-dominant products to no more than the annual
change in the Consumer Price Index for All Urban Consumers. Under the statute, the
Postal Regulatory Commission must consider six additional factors when considering
mail categories and rates.

   •   The importance of pricing flexibility to encourage increased mail volume and
       operational efficiency.

   •   The relative value to the people of the kinds of mail matter in the Postal Service’s
       system and the desirability and justification for special classifications and
       services of mail.

   •   The importance of providing both those classifications with extremely high
       degrees of reliability and speed of delivery and those that do not require high
       degrees of reliability and speed of delivery.

   •   The desirability for both the Postal Service and its users of having special
       classifications that are in accordance with the policies of this title, which requires
       agreements between the Postal Service and its users (when available) with
       terms applicable to similarly situated mailers that:




                                              7
Bound Printed Matter Workshare Discounts                              CRR-AR-08-005




           o Either improve the net financial position of the Postal Service through
             reducing Postal Service costs or increasing the overall contribution to the
             institutional costs of the Postal Service; or enhance the performance of
             mail preparation, processing, transportation, or other functions.

           o Do not cause unreasonable harm to the marketplace.

   •   The need for the Postal Service to increase its efficiency and reduce its costs,
       including infrastructure costs, to help maintain high quality and affordable postal
       services.

   •   The value of promoting intelligent mail and secure, sender-identified mail to the
       Postal Service and its users.

The requirement for establishing and maintaining a fair and equitable schedule was
eliminated by the Postal Act of 2006, leaving a total of 14 factors the Postal Regulatory
Commission must weigh when considering mail categories and rates.

On February 11, 2008, the Postal Service notified the Postal Regulatory Commission
they planned to adjust prices for their market dominant products (including BPM) on
May 12, 2008. The notice included a .42 percent increase for BPM flats and a 2.10
percent increase for BPM parcels. The BPM cost avoidance passthroughs ranged from
96.8 percent (pre-barcoded parcels) to 146.3 percent (carrier route destination bulk mail
center parcels). The Postal Service indicated they intend to gradually reduce some
BPM discounts where the passthrough significantly exceeds 100 percent of avoided
costs, in order to maintain a more stable and predictable price structure. The Postal
Regulatory Commission concluded the Postal Service adequately justified BPM
passthroughs in excess of 100 percent.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our overall objective was to review the development and implementation of workshare
discounts. Specifically, we focused on determining whether:

   •   The Postal Service developed BPM workshare discounts in accordance with
       postal law and applicable Postal Service policies and procedures;

   •   The supporting data used to develop BPM workshare discounts was reliable;

   •   The Postal Service properly implemented new BPM workshare discount rates;
       and

   •   Controls were in place to ensure that BPM mailings met workshare discounts
       standards.



                                             8
Bound Printed Matter Workshare Discounts                                               CRR-AR-08-005




We reviewed the BPM subclass of mail because it has a relatively small number of
workshare discounts (six), and because a small number of large mailers perform the
vast majority of BPM mailings. The six large mailers we reviewed accounted for 40
percent of Quarter 1, FY 2007 BPM mail volume.

To determine whether the Postal Service developed BPM workshare discounts in
accordance with postal law and applicable Postal Service policies and procedures, we
reviewed the development of BPM workshare discounts in prior omnibus rate cases up
through Omnibus Rate Case R2006-1.

To determine whether the Postal Service properly implemented new BPM workshare
discount rates, we reviewed Postal Service programs designed to implement the new
BPM rates established in R2006-1. Additionally, we visited six business mail entry units
and their associated detached mail units8 at six large BPM mailers and interviewed
Postal Service and mailer personnel. To determine whether management properly
implemented the R2006-1 rate change on May 14, 2007, we compared before and after
postage statements.

To determine whether the supporting data used to develop BPM workshare discounts
was current and reliable, we examined the source data used to develop them in
R2006-1 and traced the supporting data back to its original source. We also
interviewed Postal Service employees who developed the BPM workshare discount
rates.

To determine whether controls were in place to ensure that BPM mailings met
workshare discounts standards, we analyzed BPM mail preparation errors reported in
the Electronic Mail Improvement Reporting system from April 25, 2006, through
April 24, 2007. To determine what corrective actions management took, we interviewed
Postal Service personnel at the six facilities we visited and identified the actions taken
when mailers did not properly prepare BPM.

We conducted this performance audit from January 2007 through May 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management on March 14, 2008, and included their comments
where appropriate.



8
 Hanover, Pennsylvania; Martinsburg, West Virginia; Gordonsville, Virginia; Pewaukee, Wisconsin; Warsaw, Indiana;
and Fernley, Nevada.




                                                        9
Bound Printed Matter Workshare Discounts                                  CRR-AR-08-005



PRIOR AUDIT COVERAGE

       Report             Report                            Monetary             Results
        Title            Number         Final Report Date    Impact
 Enhanced Carrier      AC-AR-03-006    September 29, 2003     None     The review found the
 Route Standard Mail                                                   benefits of Enhanced
 Worksharing                                                           Carrier Route letters had
 Discounts                                                             been reduced as the
                                                                       volume of letters processed
                                                                       to delivery point sequence
                                                                       increased. Also, the
                                                                       delivery point sequencing
                                                                       of Enhanced Carrier Route
                                                                       letter mail with destination
                                                                       delivery unit discounts
                                                                       resulted in transportation
                                                                       and handling inefficiencies.
                                                                       We recommended
                                                                       management develop a
                                                                       rate case proposal to
                                                                       eliminate destination entry
                                                                       discounts for letters
                                                                       destinating at delivery units
                                                                       that receive delivery point
                                                                       sequenced mail processed
                                                                       on delivery barcode sorters.
                                                                       Management disagreed
                                                                       with the recommendation
                                                                       and indicated they would
                                                                       address the issues in
                                                                       subsequent rate cases.




                                               10
Bound Printed Matter Workshare Discounts                                                    CRR-AR-08-005



                                   APPENDIX B: DETAILED ANALYSIS

The Postal Service developed and implemented workshare discounts for BPM in
accordance with postal law and internal policies and procedures. However, postal
operations are continuously changing and the old conversion and productivity factors
(arrival and dispatch profiles) and other inputs used to develop the existing BPM
workshare discounts might not reflect the current operational environment. The Postal
Act of 2006 limits the change in rates for market-dominant products and requires the
Postal Service to annually report to the Postal Regulatory Commission. The report
should describe the per-item costs the Postal Service avoids through workshare
discounts for each market-dominant (mailing services) product and the per-item
contributions the discounts make to the Postal Service’s institutional costs. Updating
the old data would help establish more accurate cost models and annual reports that
can assist the Postal Service and the Postal Regulatory Commission in developing and
reviewing future postal rate changes.

Development and Implementation of Bound Printed Matter Workshare Discounts

Our examination indicates that management developed and implemented BPM
workshare discounts in accordance with postal law and Postal Service policies and
procedures. The Postal Service developed the current BPM workshare discounts under
the ratemaking process established in the Postal Reorganization Act of 1970. Under
that process, the Postal Service submitted a request to establish new BPM rates to the
Postal Regulatory Commission. Postal Service testimony and documentation9
supported this request. The Postal Regulatory Commission and other interested parties
examined the BPM testimony and supporting documentation and the Commission
issued an Opinion and Recommended Decision recommending the new rates. The
Postal Service Board of Governors agreed with the Commission’s recommendations for
new BPM rates and the Postal Service implemented an average 12 percent across the
board increase in BPM rates on May 14, 2007.

The changes in BPM rates established in R2006-1 were communicated to Postal
Service employees through a variety of means, including:

       •   Area and district briefings and training.

       •   Publication in the Postal Bulletin.

       •   Field implementation kits detailing the rate changes and how to implement them.

At the six Postal Service facilities we visited, management effectively communicated the
changes in BPM workshare discount rates. We also examined relevant postage
statements and verified that management implemented the correct rates.

9
    The supporting documentation included cost models, special studies, and volume variability factors.




                                                           11
Bound Printed Matter Workshare Discounts                                           CRR-AR-08-005




Bound Printed Matter Prepared to Workshare Standards

At the six facilities we visited, mailers generally prepared BPM mailings in accordance
with preparation standards outlined in the DMM.10 When mailers did not prepare BPM
to workshare standards, management resolved the issues through collaboration with the
mailer and the business mail entry unit.

For major mailers who have national accounts, issues are resolved through the Area
Business Service Network. According to Electronic Mail Improvement Reporting system
data, only 444 of 31,000 (1.4 percent) errors that occurred for all classes of mail for the
12-month period ending April 24, 2007, involved BPM. Effective monitoring of mailer
submissions ensures the workshare discount rates claimed are appropriate.

Old Data Used to Develop Bound Printed Matter Workshare Discounts

To propose new discount rates, the Postal Service filed testimony and associated library
references that contain the detailed data used to develop the discount rates; however,
some of the data that goes into the primary inputs are old. The primary library reference
used to develop BPM discount rates was the Parcels Cost Models.11 The Parcels Cost
Models are used to develop cost avoidance data. The primary inputs into the Parcels
Cost Models for BPM include mail processing productivity factors, arrival and dispatch
profiles at facilities, conversion factors, and miscellaneous other inputs. The inputs
contain aged data because recent rate cases were filed in rapid succession and
management did not have the time and resources to update certain studies. Changes
in productivity factors, mail profiles, and the number and the types of mail in each
container could have an impact on BPM workshare discount rates.

Productivity Factors

Mail processing productivity factors include loading, unloading, dumping, and sorting
mail. The BPM section of the Parcels Cost Models uses 19 productivity factors to
estimate BPM mail processing activities. Fourteen of these are based on old data from
prior rate cases dating back to 1984, as shown in Table 4.




10
  Domestic Mail Manual, Sections 365 and 465.
11
  R2006-1, Library References USPS-LR-L-46 (Postal Service version) and USPS-LR-L-103 (Postal Regulatory
Commission version).




                                                     12
Bound Printed Matter Workshare Discounts                                                CRR-AR-08-005



                          Table 4. Age of Data in Productivity Factors

                              Productivity Factor                             Age of Data (Rate Case)

        Unloading
         Unload sacked parcels to extended conveyor                                      R97-1
         Unload non-machinable parcels                                                   R97-1
         Unload wheeled containers                                                       R97-1
         Unload pallet/pallet box                                                        R97-1

        Dumping and sack handling
         Dump containers                                                                R97-1
         Manually dump sacks                                                           R2000-1

        Loading
         Bedload sacked machinables                                                      R97-1
         Load wheeled containers                                                         R97-1
         Load pallet/pallet boxes                                                        R97-1

        For carrier route
         Sorting BPM flats to carrier route                                             R97-1
         Sorting BPM parcels to carrier route                                           R84-1
         Sorting at carrier station                                                    R2000-1

        Other operations
         Tend container loader/sweep runouts                                             R97-1
         Crossdock                                                                       R97-1

Changes in productivity factors can impact BPM workshare discount rates. For
example, the 11.1 cent carrier route discount rate established in R2006-1 uses two
productivity factors: sorting BPM parcels to the carrier route and sorting at the carrier
station. The sorting BPM parcels to the carrier route productivity factor dates back to
the R84-1 rate case.12 If sorting BPM parcels to carrier route productivity factors
increased by 5, 10, or 20 percent, the corresponding workshare discount rates could
potentially decrease from 11.1 cents to 10.5, 10, and 9 cents, respectively. Based on
BPM test year FY 2007 mail volume estimates from rate case R2006-1, the decreases
in the workshare discount rates could increase BPM revenue by $1 million to $3.5
million.13

Arrival and Dispatch Profiles

Arrival and dispatch profiles detail the percentage of mail arriving to and dispatched
from bulk mail centers, sectional center facilities, and destination delivery units.

12
  Initiated November 10, 1983.
13
  This simplified example illustrates how changes in data can impact workshare discount rates and mail revenue.
The example assumes mail volume would not change in response to price changes, which is unlikely.




                                                        13
Bound Printed Matter Workshare Discounts                                        CRR-AR-08-005



Thirteen of the 15 arrival and dispatch profiles use old percentages from the R97-114
and R2000-1 rate cases. Table 5 lists the arrival and dispatch profiles.

                           Table 5. List of Old Arrival and Dispatch Profiles

                                Arrival and Dispatch Profile                    Age of Data (rate case)

Mail Flow Arrival at Destinating BMCs for BPM
 Machinable parcels arriving on pallets/pallet boxes at DBMC                            R2000-1
 Machinable parcels arriving in sacks at DBMC                                           R2000-1

Mail Flow Dispatch Profiles from BMCs to Service Area
 Machinable parcels dispatched in bedloaded sacks to service area                        R97-1
 Machinable parcels dispatched loose in over-the-road containers (OTRs) to
 service area                                                                            R97-1
 Machinable parcels dispatched sacked in OTRs to service area                            R97-1
 Machinable parcels dispatched in hampers, containers, etc., to service area             R97-1

Mail Flow Dispatch Profiles to Delivery Unit
 Machinable parcels dispatched in bedloaded sacks to delivery unit                       R97-1
 Machinable parcels dispatched loose in OTRs to service area to delivery unit            R97-1
 Machinable parcels dispatched in containers to delivery unit                            R97-1

DSCF
 Machinable parcels                                                                     R2000-1
 Flats                                                                                  R2000-1

Proportion of DSCF using requirements
  Sacks                                                                                 R2000-1
  Pallet and pallet boxes                                                               R2000-1

Updating mail flow arrival and dispatch percentages would assist management in
ensuring that changes to BPM workshare discounts are properly justified.

Conversion Factors and Other Inputs

Conversion factors provide BPM pieces-per-container estimates. Containers include
OTR containers, hampers, and sacks. Conversion factors include inside and outside
container dimensions, cubic feet per container, cubic feet per piece, and parcel
capacity. The data used to calculate the pieces-per-container conversion factors was
from FY 1982. However, the shape and weight of BPM packages has changed over
time. For example, in FY 1991, the average cubic-feet-per-piece for BPM was .182. By
FY 2007, the average cubic-feet-per-piece increased over 28 percent to .234. This
increase in cubic-feet-per-piece would affect the pieces-per-container conversion factor
estimates and could also change certain productivity factors. We also noted that
14
     Initiated July 10, 1997.




                                                         14
Bound Printed Matter Workshare Discounts                         CRR-AR-08-005



management updated other inputs, including wage rate and operation-specific
piggyback factors, using base year FY 2005 data.




                                           15
Bound Printed Matter Workshare Discounts                  CRR-AR-08-005



                        APPENDIX C. MANAGEMENT COMMENTS




                                           16
Bound Printed Matter Workshare Discounts        CRR-AR-08-005




                                           17
Bound Printed Matter Workshare Discounts        CRR-AR-08-005




                                           18
Bound Printed Matter Workshare Discounts        CRR-AR-08-005




                                           19
Bound Printed Matter Workshare Discounts        CRR-AR-08-005




                                           20
